Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  COMPARISON OF FOURTH-
QUARTER 2005 AVERAGE SALES
    PRICES TO AVERAGE
  MANUFACTURER PRICES:
   IMPACT ON MEDICARE
REIMBURSEMENT FOR SECOND
      QUARTER 2006


                    Daniel R. Levinson
                    Inspector General

                       July 2006
                     OEI-03-06-00370
                    Office of Inspector General
                                     http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS programs
and operations. These assessments help reduce waste, abuse, and mismanagement and promote
economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness in departmental programs. To promote impact, the reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties on
health care providers and litigates those actions within HHS. OCIG also represents OIG in the
global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
I N T R O D        U C T             I O N
Δ    E X E C U T I V E                                S U M M A R Y                  



                    OBJECTIVE
                    To determine (1) whether average sales prices (ASP) for individual
                    Medicare Part B prescription drugs exceeded average manufacturer
                    prices (AMP) by at least 5 percent during the fourth quarter of 2005 and
                    (2) the impact of lowering reimbursement amounts for drugs that meet
                    the 5-percent threshold.


                    BACKGROUND
                    In 2005, Medicare Part B began paying for most covered drugs using a
                    new methodology based on ASPs. Section 1847A(c) of the Social
                    Security Act (the Act) defines an ASP as a manufacturer’s sales of a
                    drug to all purchasers in the United States in a calendar quarter
                    divided by the total number of units of the drug sold by the
                    manufacturer in that same quarter. The ASP is net of any price
                    concessions. Manufacturers report ASPs by national drug codes (NDC)
                    and must provide the Centers for Medicare & Medicaid Services (CMS)
                    with the ASP and volume of sales for each of their NDCs on a quarterly
                    basis.

                    Although manufacturers submit ASP data by NDCs, CMS does not
                    reimburse Medicare providers for drugs using NDCs. Instead, CMS
                    uses Healthcare Common Procedure Coding System (HCPCS) codes.
                    More than one NDC may meet the definition of a particular HCPCS
                    code; therefore, CMS uses NDC-level information submitted by the
                    manufacturers to calculate an ASP for each covered HCPCS code.
                    When CMS calculates payment amounts for HCPCS codes, it must
                    weight ASPs at the NDC level by the amount of the drug sold during the
                    quarter. Under the ASP pricing methodology, Medicare’s allowance for
                    most Part B drug codes is equal to 106 percent of the volume-weighted
                    ASPs for those HCPCS codes.

                    Section 1847A(d)(2)(B) of the Act mandates that OIG compare ASPs
                    with AMPs. As defined in section 1927(k)(1) of the Act, an AMP is the
                    average price paid to the manufacturer for the drug in the United
                    States by wholesalers for drugs distributed to the retail pharmacy class
                    of trade, minus customary prompt pay discounts. As part of the
                    Medicaid drug rebate program, manufacturers must provide CMS with
                    the AMP for each of their NDCs on a quarterly basis, pursuant to
                    section 1927(b)(3) of the Act. If the ASP for a drug exceeds the AMP by
                    at least 5 percent, section 1847A(d)(3)(A) of the Act grants the Secretary

 OEI-03-06-00370    C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                           i
                  of the Department of Health and Human Services authority to disregard
                  the ASP pricing methodology for that drug. Consistent with section
                  1847A(d)(3)(C) of the Act, the payment amount for the drug code may
                  then be replaced with the lesser of the widely available market price for
                  the drug (if any) or 103 percent of the AMP.

                  For this inspection, we obtained CMS’s ASP data from the fourth
                  quarter of 2005, which were used to establish volume-weighted ASPs
                  and reimbursement amounts for the second quarter of 2006. We also
                  obtained CMS’s AMP data from the fourth quarter of 2005. We used
                  these AMP data to calculate volume-weighted AMPs using the same
                  method that CMS uses to calculate volume-weighted ASPs. Ultimately,
                  we compared volume-weighted ASPs to volume-weighted AMPs for
                  341 HCPCS codes, and identified codes for which ASPs exceeded AMPs
                  by at least 5 percent.


                  FINDING
                  For 46 of 341 HCPCS codes reviewed, the volume-weighted ASP
                  exceeded the volume-weighted AMP by at least 5 percent. Based on
                  our analysis of data from the fourth quarter of 2005, a total of
                  46 HCPCS codes had an ASP that exceeded the AMP by at least
                  5 percent. For 13 of the 46 HCPCS codes, volume-weighted ASPs
                  exceeded volume-weighted AMPs by at least 20 percent, with ASPs for
                  4 of these exceeding AMPs by more than 50 percent. If reimbursement
                  amounts for these 46 codes had been based on 103 percent of the AMP
                  during the second quarter of 2006, we estimate that Medicare
                  expenditures would have been reduced by $16 million.




OEI-03-06-00370   C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                       ii
E X E C U T I V E                        S U       M M A R Y 





                   SUMMARY
                   For the purpose of monitoring new Medicare reimbursement amounts
                   based on ASPs, and consistent with sections 1847A(d)(2)(B) and
                   1847A(d)(3) of the Act, OIG compared ASPs to AMPs to identify
                   instances in which the ASP for a particular drug exceeded the AMP by a
                   threshold of 5 percent. This review is the second of such comparisons,
                   and we identified 46 HCPCS codes that are eligible for price adjustment
                   under authority of the Secretary. Twenty of the 46 HCPCS codes were
                   previously eligible for price adjustment as a result of OIG’s first
                   comparison between ASPs and AMPs, which was performed using data
                   from the third quarter of 2004.




 OEI-03-06-00370   C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                      iii
Δ   T A B L E            O F            C O N T E N T S                                   




         EXECUTIVE SUMMARY .......................................                                                                  i



         INTRODUCTION ..............................................                                                               1




         FINDING .......................................................                                                           8

                     Results of ASP to AMP Comparison. . . . . . . . . . . . . . . . . . . . . . . .                               8



         S U M M A R Y . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                     A: 	Equation Used by CMS to Calculate Volume-Weighted ASPs 11 


                     B: 	Forty-Six HCPCS Codes With an ASP That Exceeded the 

                         AMP by at Least 5 Percent . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

Δ   I N T R O D U C T I O N                                     



                  OBJECTIVE
                  To determine (1) whether average sales prices (ASP) for individual
                  Medicare Part B prescription drugs exceeded average manufacturer
                  prices (AMP) by at least 5 percent during the fourth quarter of 2005 and
                  (2) the impact of lowering reimbursement amounts for drugs that meet
                  the 5-percent threshold.


                  BACKGROUND
                  Medicare Part B Coverage of Prescription Drugs
                  Medicare Part B covers only a limited number of outpatient prescription
                  drugs. Covered drugs include injectable drugs administered by a
                  physician; certain self-administered drugs, such as oral anticancer
                  drugs and immunosuppressive drugs; drugs used in conjunction with
                  durable medical equipment; and some vaccines.
                  Medicare Part B Payments for Prescription Drugs
                  The Centers for Medicare & Medicaid Services (CMS) contracts with
                  private companies, known as carriers, to process and pay Medicare Part
                  B claims, including those for prescription drugs. Claims for drugs that
                  are used with medical equipment are typically processed by one of four
                  durable medical equipment regional carriers. Claims for other types of
                  covered drugs are processed by local carriers. To obtain reimbursement
                  for covered outpatient prescription drugs, physicians and suppliers
                  submit claims using procedure codes. CMS established the Healthcare
                  Common Procedure Coding System (HCPCS) to provide a standardized
                  coding system for describing the specific items and services provided in
                  the delivery of health care. In the case of prescription drugs, each
                  HCPCS code defines the drug name and dosage size but does not specify
                  manufacturer or package size information.

                  Medicare and its beneficiaries spent almost $10 billion for Part B drugs
                  in 2005. Although Medicare paid for almost 550 outpatient prescription
                  drug HCPCS codes that year, the majority of spending for Part B drugs
                  was concentrated on a relatively small subset of those codes. In 2005,
                  52 codes represented 90 percent of the expenditures for Part B drugs,
                  with only 11 of these drugs representing half of the total Part B drug
                  expenditures.




OEI-03-06-00370   C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                       1
I N T R O D        U C T             I O N


                    Reimbursement Methodology for Part B Drugs and Biologicals
                    In 2005, Medicare Part B began paying for most covered drugs using an
                    entirely new methodology based on ASPs.1 Section 1847A(c) of the
                    Social Security Act (the Act), as added by the Medicare Prescription
                    Drug, Improvement, and Modernization Act of 2003 (MMA),
                    P.L. 108-173, defines an ASP as a manufacturer’s sales of a drug to all
                    purchasers in the United States in a calendar quarter divided by the
                    total number of units of the drug sold by the manufacturer in that same
                    quarter. The ASP is net of any price concessions such as volume
                    discounts, prompt pay discounts, and cash discounts; free goods
                    contingent on purchase requirements; chargebacks; and rebates other
                    than those obtained through the Medicaid drug rebate program.2 Sales
                    that are nominal in amount are exempted from the ASP calculation, as
                    are sales excluded from the determination of “best price” in the
                    Medicaid drug rebate program.3,4
                    Manufacturers report ASPs by national drug codes (NDC), which are
                    11-digit identifiers that indicate the manufacturer of the drug, the
                    product dosage form, and the package size. Manufacturers must
                    provide CMS with the ASP and volume of sales for each NDC on a
                    quarterly basis, with submissions due 30 days after the close of each
                    quarter.5
                    Given that Medicare Part B reimbursement for outpatient drugs is
                    based on HCPCS codes rather than NDCs, and that more than one NDC
                    may meet the definition of a particular HCPCS code, CMS has
                    developed a file that “crosswalks” manufacturers’ NDCs to HCPCS
                    codes. CMS uses information in this crosswalk to calculate volume-
                    weighted ASPs for covered HCPCS codes.
                    Fourth-quarter 2005 ASP submissions from manufacturers served as
                    the basis for second-quarter 2006 Medicare allowances for most covered

                    1 For 2004, the reimbursement amount for most covered drugs was based on 85 percent of
                     the average wholesale price (AWP) as published in national pricing compendia such as the
                     “Red Book.” Prior to 2004, Medicare Part B reimbursed for covered drugs based on the
                     lower of either the billed amount or 95 percent of the AWP.
                    2 Section 1847A(c)(3) of the Act.
                    3 Pursuant to section 1927(c)(1)(C)(i) of the Act, “best price” is the lowest price available
                     from the manufacturer during the rebate period to any wholesaler, retailer, provider,
                     health maintenance organization, nonprofit entity, or governmental entity within the
                     United States, with certain exceptions.
                    4 Section 1847A(c)(2) of the Act.
                    5 Section 1927(b)(3) of the Act.




 OEI-03-06-00370    C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                                                    2
I N T R O D        U C T             I O N


                    drug codes. Under the ASP pricing methodology, the Medicare
                    allowance for most Part B drugs is equal to 106 percent of the ASP for
                    the HCPCS code. Medicare beneficiaries are responsible for 20 percent
                    of this amount in the form of coinsurance.
                    The Medicaid Drug Rebate Program and AMP
                    For Federal payment to be available for covered outpatient drugs
                    provided under Medicaid, sections 1927(a)(1) and (b)(1) of the Act
                    mandate that drug manufacturers enter into rebate agreements with
                    the Secretary of the Department of Health and Human Services and pay
                    quarterly rebates to State Medicaid agencies. Under these rebate
                    agreements, and pursuant to section 1927(b)(3) of the Act,
                    manufacturers must provide CMS with the AMP for each of their NDCs
                    on a quarterly basis. As defined in section 1927(k)(1) of the Act, the
                    AMP is the average price paid to the manufacturer for the drug in the
                    United States by wholesalers for drugs distributed to the retail
                    pharmacy class of trade, minus customary prompt pay discounts. The
                    AMP is calculated as a weighted average of prices for all of a
                    manufacturer’s package sizes of a drug sold during a given quarter, and
                    is reported for the lowest identifiable quantity of the drug
                    (e.g., 1 milligram, 1 milliliter, 1 tablet, 1 capsule).
                    Office of Inspector General’s Monitoring of ASP and AMP
                    Section 1847A(d)(2)(B) of the Act mandates that the Office of Inspector
                    General (OIG) compare ASPs with AMPs. If the ASP for a drug exceeds
                    the AMP by at least 5 percent, section 1847A(d)(3) of the Act grants the
                    Secretary authority to disregard the ASP pricing methodology for that
                    drug. Consistent with section 1847A(d)(3)(C) of the Act, the payment
                    amount for the drug code may then be replaced with the lesser of the
                    widely available market price for the drug (if any) or 103 percent of the
                    AMP.

                    In April 2006, OIG released the first of its reports comparing ASPs to
                    AMPs. The study, entitled “Monitoring Medicare Part B Drug Prices:
                    A Comparison of Average Sales Prices to Average Manufacturer Prices”
                    (OEI-03-04-00430), identified a number of HCPCS codes with ASPs that
                    exceeded AMPs by at least 5 percent in the third quarter of 2004.
                    Overall, CMS indicated that the information in the report is helpful in
                    its continuing efforts to monitor payment adequacy under the ASP
                    methodology. However, CMS noted that OIG’s review was conducted
                    using data submitted during the initial implementation phase of the
                    ASP methodology. Although CMS acknowledged the Secretary’s
                    authority to adjust ASP payment limits when certain conditions are
 OEI-03-06-00370    C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                          3
I N T R O D        U C T             I O N


                    met, it believes that other issues should be considered, including the
                    timing and frequency of pricing comparisons, stabilization of ASP
                    reporting, the effective date and duration of rate substitution, and the
                    accuracy of ASP and AMP data.
                    Related Work by the Office of Inspector General
                    In a February 2006 report entitled “Calculation of Volume-Weighted
                    Average Sales Price for Medicare Part B Prescription Drugs”
                    (OEI-03-05-00310), OIG stated that CMS’s method for calculating
                    volume-weighted ASPs is incorrect because CMS does not use billing
                    units consistently throughout its equation. As a result, many HCPCS
                    codes have a reimbursement amount that is higher or lower than the
                    amount that would have been calculated if billing units were used
                    consistently. OIG recommended that CMS change its calculation of
                    volume-weighted ASPs. Although CMS indicated that it may consider
                    altering the ASP methodology, it has yet to do so.

                    In September 2005, OIG issued a report in response to section 303(c)(3)
                    of the MMA, which mandated that OIG determine whether physician
                    practices in the specialties of hematology, hematology/oncology, and
                    medical oncology could obtain drugs and biologicals for the treatment of
                    cancer patients at 106 percent of the ASP. According to this report,
                    “Adequacy of Medicare Part B Drug Reimbursement to Physician
                    Practices for the Treatment of Cancer Patients” (A-06-05-00024),
                    physician practices in these specialties could generally purchase drugs
                    for the treatment of cancer patients at or below the reimbursement rate
                    established under the ASP payment methodology.


                    METHODOLOGY
                    We obtained CMS’s NDC-level ASP data from the fourth quarter of
                    2005, which were used to establish Part B drug reimbursement
                    amounts for the second quarter of 2006. In addition, we obtained the
                    file that CMS used to crosswalk NDCs to their corresponding HCPCS
                    codes. Both the ASP data and the crosswalk file were updated as of
                    March 2006. We also obtained AMP data from CMS for the fourth
                    quarter of 2005.
                    Calculation of Volume-Weighted Average Sales Price
                    As mentioned previously, Medicare does not base reimbursement for
                    covered drugs on NDCs; instead, it uses HCPCS codes. Therefore, CMS
                    uses ASP information submitted by manufacturers for each NDC to
                    calculate a volume-weighted ASP for each covered HCPCS code. When

 OEI-03-06-00370    C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                           4
I N T R O D        U C T             I O N


                    calculating these volume-weighted ASPs, CMS only includes NDCs with
                    ASP submissions that are deemed valid. We did not examine the NDCs
                    that CMS opted to exclude from its calculation, nor did we verify the
                    accuracy of CMS’s crosswalk files.

                    As of March 2006, CMS had established prices for 496 HCPCS codes
                    based on the ASP reimbursement methodology. Reimbursement
                    amounts for the 496 HCPCS codes were based on ASP data for
                    3,061 NDCs.

                    To calculate the volume-weighted ASPs for these 496 codes, CMS used
                    an equation that involves the following variables: the ASP for the NDC
                    as reported by the manufacturer, the volume of sales for the NDC as
                    reported by the manufacturer, and the number of billing units in the
                    NDC as determined by CMS. The amount of the drug contained in an
                    NDC may differ from the amount of the drug specified by the HCPCS
                    code that providers use to bill Medicare. Therefore, the number of
                    billing units in an NDC describes the number of HCPCS code units that
                    are in that NDC. For instance, an NDC may contain a total of
                    10 milliliters of Drug A, but the corresponding HCPCS code may be
                    defined as only 5 milliliters of Drug A. In this case, there are two billing
                    units in the NDC. CMS calculates the number of billing units in each
                    11-digit NDC when developing its crosswalk files. A more detailed
                    description of CMS’s method of calculating volume-weighted ASPs is
                    provided in Appendix A.
                    Analysis of Average Manufacturer Price Data
                    An AMP is reported for the lowest identifiable quantity of the drug
                    contained in the NDC (e.g., 1 milligram, 1 milliliter, 1 tablet, 1 capsule).
                    In contrast, an ASP is reported for the entire amount of the drug
                    contained in the NDC (e.g., for 50 milliliters, for 100 tablets). To ensure
                    that the AMP would be comparable to the ASP, it was necessary to
                    convert the AMP for each NDC so that it represented the total amount
                    of the drug contained in that NDC.

                    In making these conversions, we examined AMPs only for those
                    3,061 NDCs that CMS used in its calculation of volume-weighted ASPs
                    for the 496 codes. If AMP data were not available for one or more of
                    these NDCs, we excluded the corresponding HCPCS code from our
                    analysis. We excluded a total of 144 HCPCS codes using this
                    conservative approach. The remaining 352 HCPCS codes had AMP
                    data for every NDC that CMS used in its calculation of volume-weighted
                    ASPs. These 352 HCPCS codes represented 1,659 NDCs.

 OEI-03-06-00370    C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                             5
I N T R O D        U C T             I O N


                    We then multiplied the AMPs for these 1,659 NDCs by the total amount
                    of the drug contained in each NDC, as identified by sources such as the
                    CMS crosswalk file, the “Red Book,” manufacturer Web sites, and the
                    Food and Drug Administration’s NDC directory. We will refer to the
                    resulting amounts as converted AMPs. For 23 NDCs, we could not
                    successfully identify the amount of the drug reflected by the ASP and
                    therefore could not calculate a converted AMP. These 23 NDCs were
                    crosswalked to 11 HCPCS codes. We did not include these 11 HCPCS
                    codes (126 NDCs) in our final analysis.

                    Using the converted AMPs for the remaining 1,533 NDCs, we then
                    calculated volume-weighted AMPs for each of the codes using the same
                    method that CMS uses to calculate volume-weighted ASPs. We
                    calculated volume-weighted AMPs for a total of 341 HCPCS codes. We
                    did not verify the accuracy of manufacturer-reported ASP and AMP
                    data.
                    Comparing Volume-Weighted ASPs to Volume-Weighted AMPs
                    For each of the 341 HCPCS codes included in our study, we then
                    compared the volume-weighted ASPs and AMPs and identified codes
                    with ASPs that exceeded AMPs by at least 5 percent.

                    For those HCPCS codes that met or exceeded the 5-percent threshold,
                    we conducted a review of the associated NDCs to verify the accuracy of
                    the billing units information. According to our review, four of the codes
                    that met the 5-percent threshold had associated NDCs with potentially
                    inaccurate billing units.6 Given that volume-weighted ASPs and AMPs
                    were calculated using this billing unit information, we could not be
                    certain that the results for these four codes were correct. Therefore, we
                    did not include these four codes in our findings.

                    For the remaining HCPCS codes, we then estimated the monetary
                    impact of lowering reimbursement to 103 percent of the AMP.7 First we

                    6 NDCs for these four codes had billing unit information in CMS’s crosswalk file that may
                     not have accurately reflected the number of billing units actually contained in the NDC.
                    7 Pursuant to section 1847A(d)(3) of the Act, if the ASP for a drug exceeds the AMP by at
                     least 5 percent, the Secretary has authority to disregard the ASP pricing methodology for
                     that drug. Consistent with section 1847A(d)(3)(C) of the Act, the payment amount for the
                     drug code may then be replaced with the lesser of the widely available market price for the
                     drug (if any) or 103 percent of the AMP. For the purposes of this study, we used
                     103 percent of the AMP to estimate the impact of lowering reimbursement amounts. If
                     widely available market prices had been available for these drugs and lower than
                     103 percent of the AMP, the savings estimate presented in this report would have been
                     greater.



 OEI-03-06-00370    C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                                                6
I N T R O D        U C T             I O N


                    calculated 103 percent of the volume-weighted AMP and subtracted this
                    amount from the second-quarter 2006 reimbursement amount for the
                    HCPCS code, which is equal to 106 percent of the volume-weighted
                    ASP. To estimate the financial effect for second quarter 2006, we then
                    multiplied the difference by one-fourth of the number of services that
                    were allowed by Medicare for each HCPCS code in 2005, as reported in
                    CMS’s Part B Extract and Summary System (BESS).8 This estimate
                    assumes that the number of services that were allowed by Medicare in
                    2005 remained consistent from one quarter to the next, and that there
                    were no significant changes in utilization in 2006.

                    This study was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President=s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




                    8 At the time of extraction, BESS data were 98 percent complete.




 OEI-03-06-00370    C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                          7
Δ      F I N D I N G                           




     For 46 of 341 HCPCS codes reviewed,               Consistent with sections 1847A(d)(2)(B)
   the volume-weighted ASP exceeded the                and 1847A(d)(3) of the Act, OIG
volume-weighted AMP by at least 5 percent              compared ASPs to AMPs to identify
                                                       instances in which the ASP for a
                     particular drug exceeded the AMP by a threshold of 5 percent. Forty-six
                     of the 341 HCPCS codes included in our comparison met or surpassed
                     this 5-percent threshold in the fourth quarter of 2005. Of these
                     46 HCPCS codes, 20 were identified in a previous OIG report as having
                     ASPs that exceeded AMPs by at least 5 percent in the third quarter of
                     2004.9 A list of all 46 HCPCS codes is presented in Appendix B.
                     Table 1 below describes the extent to which ASPs exceeded AMPs for
                     the 46 HCPCS codes. For 13 of the 46 codes, volume-weighted ASPs
                     exceeded volume-weighted AMPs by at least 20 percent, with ASPs for
                     4 of these exceeding AMPs by more than 50 percent.10


                     Table 1: Extent to Which ASPs Exceeded AMPs for 46 HCPCS Codes

                                                   Percentage Difference                 Number of
                                                   Between ASP and AMP                HCPCS Codes
                                                   5–9%                                         14
                                                   10–19%                                       19
                                                   20–29%                                       5
                                                   30–39%                                       1
                                                   40–49%                                       3
                                                   50–59%                                       1
                                                   60–69%                                       0
                                                   70–79%                                       0
                                                   80–89%                                       2
                                                   90–99%                                       1
                                                   Total                                        46
                                      Source: OIG analysis of fourth-quarter 2005 ASP and AMP data, 2006.




                     9 This report, “Monitoring Medicare Part B Drug Prices: A Comparison of Average Sales
                       Price to Average Manufacturer Price” (OEI-03-04-00430), found that 51 HCPCS codes met
                       the 5-percent threshold when CMS’s method was used to calculate volume-weighted ASPs
                       and AMPs using data from the third quarter of 2004.
                     10 Due to the confidential nature of ASP and AMP data, OIG is not publicly providing the
                       exact percentages for each of the 46 HCPCS codes. However, OIG will provide CMS with
                       detailed information regarding the codes identified in this report.



   OEI-03-06-00370   C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                                                8
F   I N D I N G


                      Lowering reimbursement amounts for these 46 HCPCS codes to 103 percent
                      of the average manufacturer price would have reduced Medicare allowances
                      by an estimated $16 million in the second quarter of 2006.
                      Sections 1847A(d)(3)(A) and (B) of the Act grant the Secretary authority
                      to disregard the ASP pricing methodology for a drug with an ASP that
                      exceeds the AMP by at least 5 percent. If that criterion is met, the
                      Secretary has authority to lower the reimbursement amount for the
                      drug to 103 percent of the AMP.11 In this study, we identified
                      46 HCPCS codes that met or exceeded the 5-percent threshold specified
                      in the Act. If reimbursement amounts for these 46 codes had been
                      based on 103 percent of AMP during the second quarter of 2006, we
                      estimate that Medicare expenditures would have been reduced by
                      $16 million.12
                      Three of the 46 HCPCS codes accounted for almost 80 percent of the
                      $16 million. If the reimbursement amounts for these 3 codes had been
                      based on 103 percent of the AMP during the second quarter of 2006,
                      Medicare expenditures would have been reduced by an estimated
                      $13 million.




                      11 Consistent with section 1847A(d)(3)(C) of the Act, the payment amount for the drug code
                        may then be replaced with the lesser of the widely available market price for the drug (if
                        any) or 103 percent of the AMP. For the purposes of this study, we used 103 percent of
                        the AMP to estimate the impact of lowering reimbursement amounts. If widely available
                        market prices had been available for these drugs and lower than 103 percent of the AMP,
                        the savings estimate presented in this report would have been greater.
                      12 This estimate is based on one-fourth of the number of services allowed by Medicare for
                        each HCPCS code in 2005.



    OEI-03-06-00370   C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                                                  9
B   A N N        E R      2 N D                    P A G E
Δ       S U M M A R Y                              





                       For the purpose of monitoring new Medicare reimbursement amounts
                       based on ASPs, and consistent with sections 1847A(d)(2)(B) and
                       1847A(d)(3) of the Act, OIG compared ASPs to AMPs to identify
                       instances in which the ASP for a particular drug exceeded the AMP by a
                       threshold of 5 percent. This review is the second of such comparisons,
                       and we identified 46 HCPCS codes that are eligible for price adjustment
                       under authority of the Secretary. Twenty of the forty-six HCPCS codes
                       were previously eligible for price adjustment as a result of OIG’s first
                       comparison between ASPs and AMPs, which was performed using data
                       from the third quarter of 2004.




    OEI-03-06-00370    C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                          10
A   P   P E N D        I X ~             A
Δ       A P P E N D I X                                ~      A       




     Equation Used by the Centers for Medicare & Medicaid Services to Calculate
     Volume-Weighted Average Sales Prices


         In the following equation, a “unit” is defined as the entire amount of the drug
         contained in the National Drug Code (NDC):

                                                                   ASP for NDC            * Number of NDCs Sold

           Volume-Weighted ASP                     Sum of 

                                                                Billing Units in NDC
            for the Billing Unit of
                HCPCS Code
         =

                                                                          Sum of Number of NDCs Sold





         CMS’s calculation of volume-weighted ASPs is discussed in greater detail in the
         Office of Inspector General (OIG) report, “Calculation of Volume-Weighted Average
         Sales Price for Medicare Part B Prescription Drugs” (OEI-03-05-00310). This report
         found that CMS’s method for calculating volume-weighted ASPs is incorrect because
         CMS does not use billing units consistently throughout its equation. Therefore, OIG
         recommended that CMS adopt an alternate method for calculating volume-weighted
         ASPs.




    OEI-03-06-00370      C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                                                   11
Δ   A P P E N D I X                             ~      B

     Forty-Six HCPCS Codes With an ASP That Exceeded the AMP by at Least 5 Percent

         Code     Description

         J0207    Injection, amifostine, 500 mg
         J0360*   Injection, hydralazine HCl, up to 20 mg
         J0470*   Injection, dimercaprol, per 100 mg
         J0610    Injection, calcium gluconate, per 10 mL
         J0640    Injection, leucovorin calcium, per 50 mg
         J0694    Injection, cefoxitin sodium, 1 g
         J0720    Injection, chloramphenicol sodium succinate, up to 1 g
         J0745    Injection, codeine phosphate, per 30 mg
         J1230    Injection, methadone HCl, up to 10 mg
         J1240*   Injection, dymenhydrinate, up to 50 mg
         J1270    Injection, doxercalciferol, 1 mcg
         J1460*   Injection, gamma globulin, intramuscular, 1 cc
         J1470*   Injection, gamma globulin, intramuscular, 2 cc
         J1480*   Injection, gamma globulin, intramuscular, 3 cc
         J1490*   Injection, gamma globulin, intramuscular, 4 cc
         J1500*   Injection, gamma globulin, intramuscular, 5 cc
         J1510*   Injection, gamma globulin, intramuscular, 6 cc
         J1520*   Injection, gamma globulin, intramuscular, 7 cc
         J1530*   Injection, gamma globulin, intramuscular, 8 cc
         J1540*   Injection, gamma globulin, intramuscular, 9 cc
         J1550*   Injection, gamma globulin, intramuscular, 10 cc
         J1560*   Injection, gamma globulin, intramuscular, over 10 cc
         J1670    Injection, tetanus immune globulin, human, up to 250 units
         J1850    Injection, kanamycin sulfate, up to 75 mg
         J2545*   Pentamidine isethionate, inhalation solution, per 300 mg
         J2690*   Injection, procainamide HCl, up to 1 g
         J2720    Injection, protamine sulfate, per 10 mg
         J3000    Injection, streptomycin, up to 1 g
         J3120    Injection, testosterone enanthate, up to 100 mg
         J3130    Injection, testosterone enanthate, up to 200 mg
         J3410*   Injection, hydroxyzine HCl, up to 25 mg
         J3411    Injection, thiamine HCl, 100 mg
         J3420*   Injection, vitamin B-12 cyanocobalamin, up to 1,000 mcg
         J3475    Injection, magnesium sulfate, per 500 mg
         J7501    Azathioprine, parenteral, 100 mg
                  Albuterol, up to 2.5 mg and ipratropium bromide, up to 0.5 mg, noncompounded inhalation
         J7620
                  solution, administered through DME
         J7638    Dexamethasone, inhalation solution administered through DME, unit dose form, per mg



OEI-03-06-00370   C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                                            12
A   P   P E N D          I X            ~            B      



             Code         Description
             J9000        Doxorubicin HCl, 10 mg
             J9130        Dacarbazine, 100 mg
             J9140        Dacarbazine, 200 mg
             J9190        Fluorouracil, 500 mg
             J9202*       Goserelin acetate implant, per 3.6 mg
             J9211        Idarubicin HCl, 5 mg
             J9214        Interferon, alfa-2b, recombinant, 1 million units
             J9340        Thiotepa, 15 mg
             J9360*       Vinblastine sulfate, 1 mg
            *Codes marked with an asterisk were identified in a previous OIG report as having ASPs that exceeded AMPs by
             at least 5 percent in the third quarter of 2004.
             Source: OIG analysis of fourth-quarter 2005 ASP and AMP data, 2006.




    OEI-03-06-00370       C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                                                    13
Δ   A C K N O W L E D G M E N T S                                                  


                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and David E. Tawes, Director of the Medicare and
                  Medicaid Prescription Drug Unit. Other principal Office of Evaluation
                  and Inspections staff who contributed include:

                  Lauren McNulty, Team Leader
                  Linda Boone Abbott, Program Specialist




OEI-03-06-00370   C O M PA R I S O N   OF   FOURTH-QUARTER 2005 ASPS   TO   AMPS
                                                                                       14
